COMMODITY FUTURES TRADING COMMISSION

   SEMIANNUAL REPORT
         OF THE




   OFFICE OF THE
INSPECTOR GENERAL




FOR THE PERIOD ENDING SEPTEMBER 30, 2005
                           u.s. COMMODITY FUTURES TRADING COMMIS.sION
                                                 Three Lafayette Centre
                                      1155 21st Street, NW, Washington, DC 20581
                                              Telephone: (202) 418-5110
                                               Facsimile: (202) 418-5522
                                                      www.cftc.gov


   Office of the                               October 28, 2005
Inspector General




      TO:            Reuben Jeffery, III
                     Chainnan

      FROM:          A. Roy Lavik
                     Inspector General
                                      Q Q~
      SUBJECT:       Semiannual Report of the Office of the Inspector General

             Attached is the Semiannual Report ofthe Office of the Inspector General for the period
      from Aprill, 2005 through September 30,2005. This report is submitted to you in accordance
      with the requirements of Section 5 of the Inspector General Act of 1978, as amended.

              I appreciate your support of this office.

       Attachment
             OFFICE OF THE INSPECTOR GENERAL
          COMMODITY FUTURES TRADING COMMISSION
                              SEMIANNUAL REPORT
                              FOR THE PERIOD FROM
                    April 1, 2005 THROUGH September 30, 2005



                             TABLE OF CONTENTS

SUMMARY OF OIG ACTIVITIES [including a description of significant problems, abuses,
    and deficiencies and a description of OIG recommendations for corrective action
    (Mandated by Section 5(a)(1) and (2) of the Act)]                                       1
    AUDITS                                                                                  1
    INVESTIGATIONS                                                                          2
    LEGISLATIVE AND REGULATORY REVIEWS                                                      .3

OIG RESPONSffiILITIES                                                                       3

OIG RESOURCES                                                                               4

CFTC PROGRAMS AND OPERATIONS                                                                4

COMPLETED WORK.                                                                             5
    AUDITS [including a list of each audit report issued and a summary of each particularly
    significant report (Mandated by Section 5(a)(6) and (7) of the Act)]                    5
    INVESTIGATIONS                                                                          7
    LEGISLATIVE AND REGULATORY REVIEWS                                                      7

AUDIT REPORTS OVER SIX MONTHS OLD                                                            8

       CORRECTIVE ACTION NOT COMPLETED [including an identification of each
       significant recommendation described in previous semiannual reports on which
       corrective action has not been completed (Mandated by Section 5(a)(3) of the Act)]    8
       CORRECTIVE ACTION COMPLETED                                                           8
      MANAGEMENT DECISION NOT MADE [including a summary of each audit
      report issued before the commencement of the reporting period for which no management
      decision has been made by the end of the reporting period (including
      the date and title of each such report), an explanation of the reasons such a
      management decision has not been made, and statement concerning the desired timetable
      for achieving a management decision on each such report (Mandated by Section 5(a)(10)
      of the Act)]                                                                         8

SUMMARY OF MATTERS REFERRED TO PROSECUTNE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) of the Act)                                                           9

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning infonnation or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) of the Act)                      9

REVISED MANAGEMENT DECISIONS [including description and explanation of
     the reasons for any significant revised management decision 1ll:ade during the
     reporting period (Mandated by Section 5(a)(11) of the Act)]                           9

INSPECTOR GENERAL DISAGREEMENT [including information concerning any
  .    significant management decision with which the Inspector General is in
     . disagreement (Mandated by Section 5(a)(12) of the Act)]                             9

CURRENT AUDITS                                                                             9

GAO LIAISON                                                                               13

STRATEGIC PLAN                                                                            14

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL                                            19

TABLE 1 -- REPORTS ISSUED WITH QUESTIONED COSTS
     (Mandated by Section 5(a)(8) of the Act)                                             20

TABLE 2 -- REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) of the Act)                               21




                                               11
                   INDEX OF IG ACT REPORTING
                         REQUIREMENTS

Section 5(a)(I)                                1

Section 5(a)(2)                                1

Section 5(a)(3)                                8

Section 5(a)(4)                                8

Section 5(a)(5)                                9

Section 5(a)(6)                                 5

Section 5(a)(7)                                 5

Section' 5(a)(8)                               20

Section 5(a)(9)                                21

Section 5(a)(10)                                8

Section 5(a)(11)                                9

Section 5(a)(12)                                9




                               iii
                       SUMMARY OF OIG ACTIVITIES


AUDITS

        The primary objectives ofthe Office of the Inspector General (DIG) of the Commodity
Futures Trading Commission (Commission, CFTC) are to help promote long-term efficiency and
effectiveness in the administration and operation of the Commission and to protect against fraud,
waste, and abuse. This reporting period's DIG audit activities, which are listed below, reflect
these objectives.

Current Audits

        The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current
audits beginning on page 9.)

       Audit of CFTC Financial Statements for Fiscal Year 2005. In FY 2002, Congress passed
       the Accountability of Tax Dollars Act. The Act requires the CFTC, along with numerous
       other Federal entities, to have its financial statements audited annually. To this end, the
       DIG has engaged a contractor to provide the audit effort required to enable the contractor
       to render an opinion on the agency's financial statements for fiscal year 2005 in
       accordance with generally accepted auditing standards, Government Auditing Standards,
       and OMB Bulletin 01-02. (For additional details, see page 10.)

       Review of Agency Compliance with GPRA. The Government Performance and Results
       Act of 1993 (GPRA) requires federal agencies to develop strategic plans, prepare annual
       plans setting performance goals, and report annually on actual perfonnance compared to
       goals. The first report was prepared in March 2000. The objective of this review is to
       determine how effectively the Commission is complying with GPRA's terms. This
       includes an examination of the performance measures devised by the Commission and
       the systems used for gathering the data to report on those performance measures. (For
       additional details, see page 11.)

        Investigative Peer Review of External Office of the Inspector General. A number of
        Offices of the Inspector General have agreed to subject themselves to a periodic external
        review of their investigative functions. The objectives of this peer review are to
        determine whether the Office of Inspector General's internal quality control system for
        investigations is adequate, in place, and operating; and whether established policies,
        procedures and applicable investigative standards are being followed in practice. (For
        additional details, see page 12.) .



                                                 1
Completed Audits

         The following audits have been completed during this reporting period. (For additional
details, see the section on completed audits beginning on page 5.)

       Peer Review of External Office of the Inspector General. Each office of the Inspector
       General is subject to a periodic external review of its audit function. The objectives of
       this peer review are to determine whether the Office of Inspector General's internal
       quality control system is adequate, in place, and operating in compliance with auditing
       standards promulgated by the Comptroller General of the United States; and whether
       established policies, procedures and applicable auditing standards are being followed in
       practice. (For additional details, see page 5.)

       Evaluation of the CFTC Proceedings Program. In response to observations that the
       workload of the Office of Proceedings has changed markedly over the past few years and
       that the resources of the office may be misallocated, the Office of the Inspector General
       undertook an evaluation of the Office ofProceedings. The evaluation covered the
       workload and staffing of the Office of Proceedings from FY 1999 to date. (For additional
       details, see page 6.)

       Audit of Compliance with the Federal Managers' Financial Integrity Act. In support of
       OMB Circular A-123 (Revised), the Inspector General evaluates, provides technical
       assistance, and advises the agency head as to whether the agency's review and evaluation
       process was conducted in accordance with the circular's requirements. (For additional
       details, see page 6.)

        Evaluation of the CFTC Information Security Program and Practices, FISMA. The
        Federal Information Security Management Act (FISMA) requires the Inspector General
        or his designee to perform annual independent evaluations of the information security
        progffl111 and practices of the agency. (For additional details, see page 7.)


INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross· waste of funds, or a substantial and specific danger
to the public health and safety.

       No investigations were pending as of the beginning of the reporting period, and the OIG
 opened no investigations during the period. (See the section on investigations beginning on page
 7.)




                                                 2
LEGISLATIVE AND REGULATORY REVIEWS
        The OIG reviews proposed and final CFTC regulations, legislation, and selected
exchange rules using the following basic criteria: whether the agency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study or
data analysis a clear link between the proposed solution and the identified problem(s); (3) has
specified clearly the means to effectively and efficiently enforce the proposal; (4) has assessed
the likely efficiency and effectiveness of alternative solutions; (5) can reasonably document that
the proposal will yield positive net benefits over the long term; and (6) has met the requirements
of the Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

Legislative Activities

        The Inspector General continues to be involved in legislative activities.. Congressional
staff were briefed about the various IG issues.



                              OIG RESPONSIBILITIES

       The Office of the Inspector General in the Commodity Futures Trading Commission was
created in accordance with the Inspector General Act of 1978 (P.L. 95-452), as amended by the
Inspector General Act Amendments of 1988 (P .L. 100-504). The OIG was established to create
an independent unit to:

        •   Promote economy, efficiency, and effectiveness in the administration ofCFTC
            programs and operations and detect and prevent fraud, waste, and abuse in such
            programs and operations;

        •   Conduct and supervise audits and, where necessary, investigations relating to the
            administration of CFTC programs and operations;

        •   Review existing and proposed legislation, regulations, and exchange rules and make
            recommendations concerning their impact on the economy and efficiency of CFTC
            programs and operations or the prevention and detection of fraud and abuse; and

        •   Keep the Chairman and Congress fully informed about any problems or deficiencies
            in the administration of CFTC programs and operations and provide
            recommendations for correction ofthese problems or deficiencies.




                                                 3
       Given that the CFTC does not have extensive contracts or grant making authority, the
OIG's efforts have been focused on the review of legislative and regulatory proposals and the
monitoring of internal CFTC operations.



                                      OIG RESOURCES

        The OIG consists of the Inspector General, two professional staffmembers, and a
secretary. All positions have been filled since January 2,2000. The present Inspector General
assumed his position on October 7, 1990.

        The OIG, on December 4, 1989, signed a Memorandum of Understanding with the Office
of the General Counsel (OGC). This Memorandum details the procedures that are used to
provide the OIG with OGC legal services. An OGC staffmember has been assigned to provide
such services to the OIG on an as-needed basis.



                   CFTC PROGRAMS AND OPERATIONS

       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
1992, and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through fiscal year (FY) 2005 with the passage of the Commodity Futures
Modernization Act of2000 (CFMA).

         The CFMA transformed the Commission from a front-line regulatory agency to an
oversight regulator. Although the Commission's approach to regulation has changed, the
CFTC's mission has not. The CFTC continues to be responsible for fostering the economic
utility of futures markets by encouraging their competitiveness and efficiency, ensuring their
integrity, and protecting market participants against manipulation, abusive trade practices, and
fraud. Through eff~ctive oversight regulation, the CFTC enables the commodity futures markets
better to serve their vital function in the nation's economy -- providing a mechanism for price
discovery and a means of offsetting price risks.                                              .




                                                 4
                                   COMPLETED WORK

AUDITS

       The OIG is required to conduct, supervise and coordinate audits of CFTC programs and
operations and to ensure that the audits are conducted in accordance with generally accepted
government auditing standards. The OIG is also required to recommend changes to existing and
proposed CFTC programs and operations.to promote economy, efficiency, and effectiveness and
to prevent and detect fraud and abuse.

          The purpose of these audits is to ensure that:

          •   Funds have been expended in a manner consistent with related laws, regulations, and
              policies;

          •   Resources have been managed effectively and efficiently;

          •   Stipulated program objectives have been achieved; and

          •   Resources have been safeguarded.

          The following audit reports have been issued during the reporting period.

1.        Peer Review of External Office of the Inspector General

Objective.

        Each office of the Inspector General is subject to a periodic external review of its audit
function. The objectives of this peer review are to determine whether the Office of Inspector
General's internal quality control system is adequate, in place, and operating in compliance with
auditing standards promulgated by the Comptroller General ofthe United States; and whether
established policies, procedures and applicable auditing standards are being followed in practice.

Status.

       The Office of the Inspector General completed its review of the external Office of the
Inspector General. A final report was issued to that Office of Inspector General on September
30,2005.




                                                    5
2.        Evaluation of the eYre Proceedings Program

Objective.

       The first objective of this evaluation was to determine if the current number of decision
making officials (Administrative Law Judges and Judgment Officers) and their staffs could be
supported by the current level ofwork available. The second objective of this evaluation was to
determine whether the current number of staff in the Proceedings Clerk's Office and the
Complaints Section of the Office ofProceedings could be supported by the current level of work
available.

Status.

        In response to observations that the workload of the Office of Proceedings has changed
markedly over the past few years and that the staffing resources of the office may be
misallocated, the Office ofthe Inspector General undertook an evaluation of the Office of
Proceedings.

        The evaluation disclosed that the workload of the Administrative Law Judges and the
Judgment Officers and that of the staff reporting directly to them has declined sharply over the
past decade while the staffing of the judicial side of the Office ofProceedings has remained
relatively stable and that the workload of the non-judicial staff of the Office of Proceedings has
declined sharply with the staffing declining along with the workload.

        As a result of this evaluation, the Office of the Inspector General, in a report dated July
21, 2005, recommended that the Chairman direct the Executive Director to reduce the staff of the
Office of Proceedings from fourteen to twelve as follows: reduce the number of decisional
officials from two Administrative Law Judges and two Judgment Officers to two Administrative
Law Judges; reassign the two Judgment Officers with their positions and the Paralegal who
supports them without her position to other organizations within the Commission; support the
two Administrative Law Judges with two attorney advisors and one secretary; and maintain the
non-judicial staff in the Office ofProceedings at seven full time positions.

3.        Audit of Compliance with the Federal Managers' Financial Integrity Act

Objective.

       In support ofOMB Circular A-123 (Revised), the Inspector General evaluates, provides
technical assistance, and advises the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Status.

        For the fourth year, the Commission has been working on a new approach to satisfying
 the requirements of Circular A-123 (Revised). The OIG reviewed draft and final internal control
 materials produced by the Commission and provided comments. The OIG reported the results of



                                                 6
its review of the submissions to the Chairman in its annual assurance letters. The OIG offered its
services to the Commission as advisor and consultant on conducting and reporting on internal
control reviews.

4.        Evaluation of the eYre Information Security Program and Practices, FISMA

Objectives.

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.

Status.

        To provide a comprehensive review of the Commission's security program, OIRM and
OIG worked jointly in gathering and interpreting information relating to the CFTC information
security program. Using the information supplied by OIRM staff, a contractor, and the program
managers, the Inspector General reviewed and analyzed the information and responded in tabular
form to the questions raised by the OMB Guidance. Results of this effort were transmitted to the
CFTC's Chief Information Officer (CIO) on September 22,2005 for combination with the CIO's
assessment and inclusion in the Chairman's report to OMB.


INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

      No investigations were pending as of the beginning of the reporting period, and the OIG
opened no investigations during the period.


LEGISLATIVE AND REGULATORY REVIEWS

        As specified in Section 4(a) (2) of the Inspector General Act of 1978, the OIG reviews
the impact of existing and proposed legislation and regulations on CFTC programs and
operations and makes recommendations regarding more effective or efficient alternatives or
protections against fraud and abuse. The OIG also reviews selected exchange rule proposals and
changes.

       The OIG has notified the responsible Divisions as to any concerns with draft and final
 documents relating to legislation, rules or investigations. Fonnal comments were not filed with
 the Commission.


                                                 7
RULE REVIEWS INITIATED IN PREVIOUS REPORTING PERIODS

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.

RULE REVIEWS INITIATED THIS REPORTING PERIOD

        The GIG has reviewed the numerous rules required by the CFMA. The CFMA altered
the relationship of the Commission to the futures industry in many regards and the rules sought
to reflect this change.


Legislative Activities

      The Inspector G.eneral continues to be involved in legislative activities and contact has
been made with congressional staff on various IG issues.



               AUDIT REPORTS OVER SIX MONTHS OLD


CORRECTIVE ACTION NOT COMPLETED
       There were no instances of audit reports over six months old where corrective action had
not been completed.

CORRECTIVE ACTION COMPLETED
       There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.

MANAGEMENT DECISION NOT MADE

        There were no instances of reports issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.




                                                 8
                   SUMMARY OF MATTERS REFERRED TO
                      PROSECUTIVE AUTHORITIES

       No matters were referred to prosecutive authorities during the reporting period

                   SUMMARY OF EACH REPORT MADE TO
                         THE AGENCY HEAD

        No reports were made to the agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided.

                      REVISED MANAGEMENT DECISIONS

       No management decisions were revised during the reporting period.



                   INSPECTOR GENERAL DISAGREEMENT

        The Inspector General has an ongoing disagreement with the management decisions
made by a previous Chairman on OIG recommendations contained in the investigation of the
hiring process detailed in the semiannual report for the period ending September 30, 2004.



                                     CURRENT AUDITS

           The audit agenda and priorities for the OIG are determined based on the following
factors:

           •   Statutory and regulatory requirements;

           •   Adequacy of internal control systems as indicated by vulnerability assessments and
               internal control reviews recommended by OMB Circular A-123;

           •   Changes in the program conditions or particular vulnerability of the organization,
               program, activity, or function to problems or deficiencies;




                                                    9
       •     Current and potential dollar magnitude and likely benefits of a review on the
             efficiency or effectiveness of CFTC programs and operations;

       •     Management priorities and improvements that may be possible;

       •     Results of audits of CFTC programs and operations by other Federal agencies; and

       •     Availability of audit resources and the potential opportunity costs to the agency.

       The audit agenda and summary ofprogress for each audit, which has not yet been
completed, is summarized below. New agenda items periodically will be added, as appropriate,
along with a description of the audit objective for each.

1.     Audit of eYre Financial Statements for Fiscal Year 2005

Objectives.

       In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the agency's financial statements for fiscal year
2005 in accordance with generally accepted auditing standards, Government Auditing Standards,
and OMB Bulletin 01-02.

The specific objectives of this audit are to determine whether:

       (1) The financial statements present fairly the financial position of the Commodity
       Futures Trading Commission in accordance with generally accepted accounting
       principles (GAAP) as promulgated by the Federal Accounting Standards Advisory Board
       (FASAB). The six financial statements, along with all corresponding notes to be audited
       include: (a) Balance Sheet; (b) Statement of Net Cost; (c) Statement of Changes in Net
       Position; (d) Statement of Budgetary Resources; (e) Statement of Financing; and (f)
       Statement of Custodial Activity.

       (2) Management's assertions about the effectiveness of its internal controls for achieving
       internal control objectives described in AU Section 319 and the Federal Managers
       Financial Integrity Act (FMFIA) are fairly stated in all material respects. The contractor
       shall make this determination in part by obtaining an understanding of the internal control
       policies and procedures and assessing the level of control risk relevant to all significant
       cycles, classes of transactions, and account balances. For those significant control
       policies and procedures that have been properly designed and placed in operation, the
       contractor shall perform sufficient tests to provide reasonable assurance as to whether the
       controls are effective and working as designed.

           The independent public accountant (IPA) will limit its internal control testing to those
           controls necessary to achieve the objectives described in OMB Bulletin 01-02. Further,



                                                   10
          the IFA is not required to test all internal controls relevant to operating objectives as
          broadly defined by the Federal Manager's Financial Integrity Act of 1982, such as those
          controls relevant to achieving efficient operations.

          With respect to internal controls related to performance measures reported in the
          accountability report, the IFA will obtain an understanding of the design of significant
          internal controls relating to the existence and completeness assertions, as required by
          OMB Bulletin 01-02. The procedures are not required to provide assurance on internal
          controls over reported performance measures.

          (3) The agency has complied with selected provisions of laws and regulations identified
          by OMB Bulletin 01-02 or the Inspector General, noncompliance with which could have
          a direct and material effect on the determination of financial statement amounts. The IFA
          will limit its tests of compliance to these provisions and need not test compliance with all
          laws and regulations applicable to the CFTC.

          (4) The information in the "Overview of the Reporting Entity" is consistent in content
          and presentation with the information in the principal statements and the related notes
          consistent with Statements on Auditing Standards (SAS) No.8, Other Information in
          Documents Containing Audited Financial Statements.

Status.

       An independent public accounting firm was selected on January 15,2004 to complete the
2004 CFTC Financial Statement Audit. Their audit report was delivered on November 18, 2004.
The same firm under an option year of the contract began this audit with an opening meeting on
March 11, 2005. Initial interviews of CFTC employees were conducted, and an audit plan was
delivered to the Office of the Inspector General. The plan was reviewed, modified, and
implemented. The final report is to be delivered on November 15, 2005.

2.        Review of Agency Compliance with GPRA

Objective.

        The Government Performance and Results Act of 1993 requires federal agencies to
develop strategic plans, prepare annual plans setting performance goals, and report annually on
actual performance compared to goals. The first report was prepared in March 2000. The
objective of this review is to determine how effectively the Commission is complying with
GPRA's terms. This includes an examination of the performance measures devised by the
Commission and the systems used for gathering the data to report on those performance
measures.

Status.

     In response to Congressional interest, the GIG consulted with and advised the
Commission's operating divisions concerning GPRA requirements. The Office of the Inspector



                                                   11
General reviewed the Commission's FY 2001, FY 2002, FY 2003 and FY 2004 Annual
Performance Plan before each was submitted to Congress. The OIG also reviewed the FY 2005
Annu'al Performance Plan that was included with the FY 2005 budget estimate which were
combined into the FY 2005 Budget & Performance Estimate submitted to the Office of
Management and Budget in FY 2004.

         The OIG selectively reviewed the FY 1999, FY 2000, FY 2001, FY 2002 and FY 2003
Annual Performance Reports after they were submitted to Congress. However, in FY 2004 the
OIG reviewed the agency produced Peformance and Accountability Report prior to it being
submitted to the Office of Management and Budget. The FY2004 PAR contained three sections
which are: the first audited (by OIGIKPMG) Financial Statements of the agency; the FY 2004
Annual Performance Report as well as a Management Discussion and Analysis of operations
section. The OIG concluded that the agency had made improvements in defining its goals and
identifying measures for reaching its stated goals.

3.        Investigative Peer Review of External Office of the Inspector General

Objective.

        A number of Offices of the Inspector General have agreed to subject themselves to a
periodic external review of their investigative functions. The objectives of this peer review are
to determine whether the Office of Inspector General's internal quality control system for
investigations is adequate, in place, and operating; and whether established policies, procedures
and applicable investigative standards are being followed in practice.

Status.

        The peer review began with the delivery of the Questionnaire for Review of Compliance
with PCIEIECIE Quality Standards for Investigations to the Inspector General who will be the
subject of this review. Upon receipt and review of the completed questionnaire, we will conduct
a site visit for interviews of staff, observation of conditions, and gathering of data.




                                                12
                                      GAO LIAISON

        The OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
the OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongoyemmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.

       GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Mor~over, OIG in its audits activities identifies the goals of each audit
and the methods of reaching the goals so as to minimize the requirements placed on CFTC
resources.

        During this reporting period the OIG has met on several occasions with and coordinated
its audit activities with staff from the GAO.




                                                 13
                                  STRATEGIC PLAN
                                         FOR THE
                OFFICE OF THE INSPECTOR GENERAL


INTRODUCTION

        The Office of the Inspector General (OIG) in the Commodity Futures Trading
Commission (CFTC) was created in accordance with the Inspector General Act of 1978 (p.L. 95-
452), as amended by the Inspector General Act Amendments of 1988 (P .L. 100-504). The OIG
was established to create an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and investigations relating to the administration of
           CFTC programs and operations;

       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

        Accordingly, the OIG has established three programs to carry out its responsibilities:
audit, investigation, and legislative and regulatory review. A summary of those programs
follows.

AUDIT

        The primary objectives of the OIG are to promote long-term efficiency and effectiveness
in the administration and operation of the Commission and to pro.tect against fraud and abuse.

        The key to effectively and efficiently managing the CFTC is information. Top level
managers and decision makers require a steady stream of organized data on the effects of their
policy decisions and resource allocations on the operations of the Commission. Once having
made the decision to change resource levels or policy, managers must receive accurate and
timely reports of the operational effects of their decision so they can determine if the change is in
the direction and ofthe magnitude predicted. In the absence of such information, top level
managers cannot adequately perform their jobs.




                                                 14
        A number of obstacles to acquiring and transmitting the desired information to decision
makers may exist in some programs. Principal among them is the Commission's apparent
difficulty in many instances in tracking the progress of a particular action across organizational
lines within the Commission.

        A simple example is the Reparations Program prior to the installation of an OIG
recommended unified, Commission-wide tracking system. Complaints are received and
processed and hearings are held in the Office of Proceedings; appeals ofinitial decisions in
reparations cases are transmitted to the Office of the General Counsel where proposed
Commission opinions are drafted; and appeals are decided by the Commission with the
paperwork being handled by the Office of the Secretariat. Each office involved in the process
had a separate tracking system without ties to the tracking systems in the offices preceding them
or following them in the process. Each office treated the case as if it were brand new to the
Commission when they received it. As a result, there was no provision for tracking information
across organizational lines. If the Chairman wanted to mow how much time was spent on the
average reparations case of a particular description at each stage in the process, that information
was unavailable without an extensive expenditure of manual labor.

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results of that activity. The Commission does a good job of tracking
resources expended. It can determine how much staff time and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with particular
projects. What a program manager may have great difficulty doing, however, is telling a
decision maker that, for a specific level or increase in resources, the program manager will
deliver a specific level of increased output. Without this information from all programs
competing for limited resources, decision makers cannot make reasoned resource allocation
judgements. Decision makers are forced to rely on intuition and anecdotal evidence.

       To increase the efficiency and the effectiveness of the management of CFTC programs
and operations, the OIG will, in addition to conducting mandatory audits, concentrate its audit
resources on the identification of information voids and the lack of continuity in the flow of
information across organizational lines from the beginning of a process until its conclusion. The
OIG will recommend the implementation of any system improvements where the benefits of
implementing the change exceed the costs.

        In addition to our efforts to bring technology to bear on the information requirements of
the Commission, the OIG has been following the Commission's development of measures and
systems ofmeasurement in response to the Government Performance and Results Act (GPRA).
As the Commission implements GPRA, the OIG will devote significant resources to monitoring
agency performance to insure that the data is accurately gathered and that the measures reported
are the best available for demonstrating program performance.

INVESTIGATIONS

       The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning



                                                 15
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        The OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because the
OIG believed that an independent regulatory agency such as the CFTC, without grant money or
substantial contracts to a~ard, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the GIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline's existence is publicized on the
back cover of this semiannual report.

       Because of the reactive nature of the OIG's investigative program, no investigative
agenda has been established.

LEGISLATIVE AND REGULATORY REVIEW

        Because of the importance of this activity in an economic regulatory agency, the OIG
reviews proposed and final CFTC regulations, legislation, and selected exchange rules using six
basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be addressed
by the proposal; (2) has defined through case study or data analysis a cle!1f link between the
proposed solution and the identified problem(s); (3) has specified clearly the means to
effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long tenn; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its infonnation collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because the GIG does not initiate legislation or, generally, regulations, the OIG
legislative and regulatory review program is reactive to. the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.




                                                 16
                                     · AUDIT AGENDA

ANNUAL AUDITS

       The following audit is performed on an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act

       In support ofDMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

OTHER AUDITS

        The DIG intends to focus the balance of its audit resources on insuring that the Chairman,
the Commissioners, and program managers have timely, useful information on the progress of
the CFTC's programs in meeting their goals and objectives. For example, emphasis will be
placed on determining whether all managerial levels engaged in a process can track the progress
of their various programs. The tracking systems required in many, though not all, programs will
cross formal organizational lines.

        These audits will entail a cataloging and description of all of the manual and automated
systems used by a program to gather information on its use of resources, the results of the
devotion of those resources (including definitions of measurements of accomplishment), and the
reporting of results and associated costs to the upper level managers in the Division and to the
Chairman and the Commissioners. The cataloging of these decision support systems will be
followed by an assessment of whether all concerned officials are timely receiving the
information they require to efficiently allocate resources to those uses which best accomplish the
priorities of the Commission. If any elements are lacking in the information systems, they will
be identified and improvements will be recommended if they can be implemented in a
cost/beneficial manner.

        If recommendations are successfully implemented, the proposed systems should allow
the Chairman, the Commissioners, and concerned program managers to track the progress of a
particular program across organizational lines and to quickly determine the effects, if any, of
changes in policy, procedure, or staffing.

      The first step in accomplishing this goal will be to concentrate on documenting, and
recommending the improvement and/or development of tracking systems in every program
element throughout the Commission.

       In addition to our focus on facilitating the development of an efficient flow of
information throughout the agency, the OIG will devote resources to the audit of compliance
with the terms of agency contracts (such as leases of space in New York, Chicago, and
Washington, D.C.), the collection of funds (such as compliance with the terms of the Debt
Collection hnprovement Act of 1996 and the resultant Memorandum ofUnderstanding with



                                                17
Treasury), and agency compliance with Congressional mandates (such as the Government
Performance and Results Act and the Government Information Security Reform Act).

RESOURCES REQUIRED
        The GIG estimates that approximately one staff year of effort will be devoted over each
of the next five years to the development of an efficient flow of information throughout the
agency. Nine-tenths of a staff year of effort will be devoted over each of the next five years to
the compliance audits described above. The "Annual Audits" are expected to consume
approximately one-tenth staff year per year.




                                                 18
                      CONTACTING THE OFFICE OF THE
                          INSPECTOR GENERAL


       The GIG is located at 1155 21 st Street, N.W., Washington, D.C. 20581. The telephone
number is (202)418-5110. The facsimile number is (202)418-5522. The hotline number is
(202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM, Monday through
Friday, except Federal holidays.




                                              19
                                              Table 1
                                 Reports Issued with Questioned Costs
                                 (Aprill, 2005 - September 30, 2005)

                                                                        Dollar Value
                                                                         Thousands
                                                     Number      Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   o               o        o
B.   Which were issued during the reporting
     period                                             o               o        o
     Subtotals (A + B)                                  o               o        o
c. For which a management decision was
     made during the reporting period                   o               o        o
     (I)      dollar value of
              disallowed costs                          o               o        o
     (ii)     dollar value of costs not
              disallowed                                o               o        o
D.   For which no management decision
     has been made by the end of the
     reporting period                                   o               o        o




                                               20
                                              Table 2
                             Reports Issued with Recommendations
                                That Funds be Put to Better Use
                              (Aprill, 2005 - September 30, 2005)


                                                             Dollar Value
                                                   Number     Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                o              o
B.   Which were issued during the reporting
     period                                          o              o
     Subtotals (A + B)                               o              o
c.   For which a management decision was
     made during the reporting period                o              o
     (i)      dollar value of
              recommendations that
              were agreed to by management
                                                     o              o
     ( ii )   dollar value of
              recommendations that
              were not agreed to by
              management                                o           o
D.   For which no management decision
     has been made by the end of the
     reporting period                                               o




                                              21
       ·TheInspector General
        needsyourhelp to
        assure the integrity of
        CFTC's programs.



Report FRAUD, WASTE
or ABUSE to the
INSPECTOR GENERAL

HOTLINE
202 418-5510
     Office of the Inspector General
 Commodity Futures Trading Commission
       1155 21ST Street, N.W.
       Washington, D.C. 20581
